<html>
<title> - S. Hrg. 111-1197 THE IMPACTS OF MOUNTAINTOP REMOVAL COAL MINING ON WATER QUALITY IN APPALACHIA</title>
<body><pre>[Senate Hearing 111-1197]
[From the U.S. Government Publishing Office]


 
                                                       S. Hrg. 111-1197

               THE IMPACTS OF MOUNTAINTOP REMOVAL COAL 
                MINING ON WATER QUALITY IN APPALACHIA

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             JUNE 25, 2009

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works
  
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  



       Available via the World Wide Web: http://www.gpo.gov/fdsys


________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aec9dec1eecddbdddac6cbc2de80cdc1c380">[email&#160;protected]</a>  



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

                   Subcommittee on Water and Wildlife

                 BENJAMIN L. CARDIN, Maryland, Chairman
FRANK R. LAUTENBERG, New Jersey      MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma (ex 
BARBARA BOXER, California (ex            officio)
    officio)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 25, 2009
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     1
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..     4
Boxer, Hon. Barbara, U.S. Senator from the State of California, 
  prepared statement.............................................     9
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     9

                               WITNESSES

Pomponio, John ``Randy,'' Director, Environmental Assessment and 
  Innovation Division, U.S. Environmental Protection Agency Mid-
  Atlantic Region................................................    12
    Prepared statement...........................................    15
Sloan, Paul L., Deputy Commissioner, Tennessee Department of 
  Environment and Conservation...................................    53
    Prepared statement...........................................    55
    Response to an additional question from Senator Boxer........    86
    Responses to additional questions from:
        Senator Cardin...........................................    86
        Senator Inhofe...........................................    87
Huffman, Randy, Cabinet Secretary, West Virginia Department of 
  Environmental Protection.......................................    89
    Prepared statement...........................................    92
    Response to an additional question from Senator Boxer........    99
    Responses to additional questions from:
        Senator Cardin...........................................   101
        Senator Inhofe...........................................   108
Gunnoe, Maria, Organizer, Ohio Valley Environmental Coalition....   114
    Prepared statement...........................................   116
Palmer, Margaret A., Ph.D., Laboratory Director, Chesapeake 
  Biological Laboratory, University of Maryland..................   139
    Prepared statement...........................................   141
    Response to an additional question from Senator Boxer........   184
    Responses to additional questions from Senator Cardin........   186

                          ADDITIONAL MATERIALS

Research papers:
    Human health impacts:
        Health Disparities and Environmental Competence: A Case 
          Study of Appalachian Coal Mining.......................   201
        Mortality Rates in Appalachian Coal Mining Counties: 24 
          Years Behind the Nation................................   207
        Mortality in Appalachian Coal Mining Regions: The Value 
          of Statistical Life Lost...............................   215
        Hospitalization Patterns Associated with Appalachian Coal 
          Mining.................................................   225
    Environmental impacts:
        Water Quality From Underground Coal Mines in Northern 
          West Virginia (1968-2000)..............................   250
        Aquatic Hazard of Selenium Pollution From Mountaintop 
          Removal Coal Mining....................................   263
        Flow Origin, Drainage Area, and Hydrologic 
          Characteristics for Headwater Streams in the 
          Mountaintop Coal-Mining Region of Southern West 
          Virginia, 2000-01......................................   280
        Acid Mine Drainage Control and Treatment.................   304
        The effect of Appalachian mountaintop mining on interior 
          forest.................................................   346
        How to Restore Forests on Surface-Mined Land.............   355

Rules and legislation:
    Rules of Tennessee Department of Conservation Division of 
      Surface Mining--Chapter 0400-3-7--Coal.....................   387
    House Bill 455...............................................   403
    Senate Bill No. 1011.........................................   406
    Senate Resolution No. 50.....................................   414
    Resolution regarding Permit SMA#S-3002-07 and NPDES#WV1022202   416

Statistics:
    Census of Population: 1960...................................   417
    1970 Census of Population....................................   419
    1980 Census of Population....................................   421
    1990-2009 Bureau of Labor Statistics information on:
        Boone County, West Virginia..............................   427
        Fayette County, West Virginia............................   429
        Lincoln County, West Virginia............................   431
        Logan County, West Virginia..............................   433
        McDowell County, West Virginia...........................   435
        Mingo County, West Virginia..............................   437
        Wyoming County, West Virginia............................   439

Correspondence:
    January 22, 2009, letter from the U.S. Department of the 
      Interior, National Park Service, to the West Virginia 
      Department of Environmental Protection.....................   441
    June 29, 2009, letter from Caterpillar Inc., Cat Global 
      Mining, to Senator Cardin and Senator Crapo................   443
    July 2, 2009, letter from Acculab Inc., to Senator Cardin....   445

Additional testimony:
    Hon. Frank Pallone, Jr., U.S. Representative from the State 
      of New Jersey..............................................   447
    U.S. Department of Energy....................................   449
    West Virginians for Affordable Health Care...................   452
    National Mining Association:
        Written Statement........................................   464
        GEI Consultants, Inc.....................................   469
        Mining Community Grassroots Commercial Summary...........   474
        Mountaintop Mining Fact Book.............................   477
    Tennessee Mining Association.................................   486
    Mingo County Redevelopment Authority of Williamson, West 
      Virginia...................................................   488
    The Appalachian Regional Reforestation Initiative............   493
    Coalition for Mountaintop Mining:
        July 3, 2009, letter to Senator Cardin...................   499
        Comments of Chris Hamilton, Chairman.....................   501
        Statement--Mountaintop Mining: Essential to Our Future...   504
    Walker-Cat...................................................   519


  THE IMPACTS OF MOUNTAINTOP REMOVAL COAL MINING ON WATER QUALITY IN 
                               APPALACHIA

                              ----------                              


                        THURSDAY, JUNE 25, 2009

                               U.S. Senate,
         Committee on Environment and Public Works,
                        Subcommittee on Water and Wildlife,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:30 p.m. in 
room 406, Dirksen Senate Office Building, Hon. Benjamin Cardin 
(chairman of the subcommittee) presiding.
    Present: Senators Cardin, Alexander, and Inhofe.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Senator Inhofe, and the Ranking 
Member of our Subcommittee, Senator Crapo, for helping to 
arrange for today's hearing.
    This is the first hearing that we have had in the Senate in 
7 years on mountaintop recoveries. So, I think it is an 
important hearing and I want to thank the leadership for moving 
forward.
    I also want to thank Senator Alexander for his help in 
arranging today's hearing.
    Let me make a couple of opening comments. First, I think is 
one that is pretty obvious. Coal is important to America. It is 
an important mineral that we have, and I think this Committee 
recognized its importance last year in the Lieberman-Warner 
Bill that we worked and marked up, providing for coal as a part 
of our energy solution and investing a significant amount of 
resources into clean burning coal.
    The bill that may be on the House floor tomorrow that deals 
with global climate change invests a great deal of resources in 
coal, recognizing its importance as an energy source to 
America.
    This hearing is to explore one method that is used in coal 
mining in the United States and to look at its environmental 
and health risks. We are talking about the impact of 
mountaintop removal coal mining on water quality. That is the 
responsibility of this Committee.
    Now, we have had similar concerns about water quality in 
other types of industries from manufacturing and industrial and 
agriculture, and I think it is very important that this 
Committee look at the mining practices of mountaintop removal 
and its impact on our water quality in America.
    There will be future opportunities to look at specific 
bills, including a specific bill that Senator Alexander and I 
have co-sponsored.
    Mountaintop removal has grown in the Appalachia. It is one 
method. It is primarily limited to Eastern Kentucky and 
Southern West Virginia. We have many environmental concerns 
concerning coal slurry impoundment, which is used in 
mountaintop removal, but coal slurry impoundments are used in 
other types of activities in addition to just mountaintop 
removal.
    Mountaintop removal involves the complete deforestation of 
a mountaintop. The mountaintop is then systematically removed, 
moving down the mountain. The overburden is then dumped into 
the valley. The impact of this type of activity is dramatic. It 
is dramatic in regards to issues concerning runoff. Runoff gets 
filtered in a mountain through its vegetation and through its 
natural contour. When that is removed, the types of pollution 
that are not filtered are much more dramatic as a result of 
runoff issues.
    We have found the disappearance of valley streams. Over 
1,700 miles of stream channels have been adversely impacted by 
mountaintop removal. Valley streams are critically important to 
the downstream water quality. We have found that, as a result 
of mountaintop removal, that we have toxic contaminants in our 
water supply. There is a public health concern. We find a much 
higher incidence of kidney disease, chronic airway obstruction, 
pulmonary disease and hypertension, just to mention a few, in 
those communities that are impacted by mountaintop removal.
    And there is the issue about the natural beauty of our 
Country being permanently changed as a result of mountaintop 
removal. It adversely affects the economies of the region as 
far as tourism, property values and alternative uses that could 
produce economic activities in these areas, including one in 
energy dealing with wind energy.
    I am very pleased that we have two panels of experts, one 
from the EPA, the other a group of individuals who are experts 
in this area, to help this Committee understand the impact on 
our water supply caused by mountaintop removal.
    I am very pleased to recognize Senator Alexander, who has 
been a real leader on this issue, and a member of our 
Committee.
    [The prepared statement of Senator Cardin follows:]

          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    I want to thank our panels of witnesses for coming before 
the Water and Wildlife Subcommittee today to discuss 
mountaintop removal coal mining.
    It has been more than 7 years since this Committee last 
examined the practice, and in that time mountaintop removal 
operations have grown across Appalachia. Our hearing will 
examine the impacts of mountaintop removal on water quality and 
how it affects the quality of life for the thousands of 
residents living in the Appalachian coalfields.
    So there is no confusion about the subject of today's 
hearing, let me be clear:
    (1) Not all coal extraction operations in the Eastern U.S., 
or even in all of Appalachia, use mountaintop removal 
techniques to mine coal.
    Mountaintop removal/valley fill operations are largely 
limited to Eastern Kentucky and Southern West Virginia because
     of the depth of the coal seams beneath the surface,
     the topography of the region and
     the combination of Federal, State and local regulations 
that permit the practice.
    Coal extraction operations in the Western United States do 
not employ mountaintop removal techniques because coal in the 
west is typically located near the surface.
    (2) There are many adverse impacts associated with coal 
slurry impoundments beyond their use on mountaintop removal 
sites. The Committee is concerned with these issues but they 
will not be the focus of this hearing.
    Mountaintop removal coal mining starts with the complete 
deforestation and removal of all ground level vegetation and 
topsoil from the top of the mountain. Using heavy explosives 
and excavation equipment, the mountaintop is systematically and 
evenly removed in sections going down the mountain. As the 
mountain gets shorter, the adjacent valley is buried under the 
``overburden,'' the combination of topsoil and rock displaced 
by explosives and excavation equipment. \1\
---------------------------------------------------------------------------
    \1\ Source: EPA Region 3 Power Point presentation on the 
mountaintop removal process.
---------------------------------------------------------------------------
    Mountaintop removal coal operations have led to burial or 
adverse impacts on more than 1,700 miles of stream channels. 
\2\ The disappearance of these valley streams is a great 
concern of mine not only because the material used to replace 
the valleys is loaded with toxic contaminants like lead, 
arsenic, mercury and selenium, but also because these valley 
fills quite literally remove ephemeral and headwater streams 
from the landscape.
---------------------------------------------------------------------------
    \2\ Office of Surface Mining.
---------------------------------------------------------------------------
    These streams are characterized by scientists as ``where 
rivers are born'' and are vitally important to the health of 
downstream water quality. \3\
---------------------------------------------------------------------------
    \3\ Meyer, Judy--Where Rivers are Born: The Scientific Imperative 
for Defending Small Streams and Wetlands (2003).
---------------------------------------------------------------------------
    Numerous studies have shown that when impacts to the 
natural landscape of a watershed exceed 10 percent, water 
quality and the biodiversity of aquatic life in all waters of 
the watershed decline. \4\ In Southern West Virginia there are 
watersheds with more than 25 percent of the land impacted by 
surface mines operations.
---------------------------------------------------------------------------
    \4\ Yuan L.L. & Nortno S.S.--Comparing responses of 
macroinvertebrate metrics to increasing stress (2003). Allan J.D.--
Landscapes and riverscapes: the influence of land use on stream 
ecosystems (2004). Morgan, R.P. & Cushman, S.F.--Urbanization effects 
on stream fish assemblages in Maryland (2005).
---------------------------------------------------------------------------
    What's more, the permitting process for these operations 
have not been taking into account the cumulative effect of an 
entire surface mine operation on downstream water quality.
    What will start as a relatively small operation can expand 
upwards to 10,000 acres over a 7- to 12-year span. \5\
---------------------------------------------------------------------------
    \5\ Hobert 21 mine in Boone County, WV--10,000 acre footprint.
---------------------------------------------------------------------------
    The vegetation and natural contour of the landscape absorb 
and slow the flow of stormwater through the watershed. Studies 
have shown that all attempts at remediation and stream 
construction on reclaimed mine sites have had zero success in 
replicating natural hydrological features. \6\ These remedial 
streams also contribute to the persistent drainage of 
contaminants from the former mine.
---------------------------------------------------------------------------
    \6\ Bernhardt E.S., et al.--Restoration of U.S. Rivers: a national 
synthesis (2005). Palmer M.A., et al.--Standards for ecologically 
successful river restoration (2005).
---------------------------------------------------------------------------
    When coal is referred to as an inexpensive source of energy 
there are many costs associated with the resource that are not 
taken into account, not the least of which is the cost to 
downstream communities.
    Coalfield residents are saddled with declining property 
values, spoiled well water and soaring insurance rates as 
mining operations creep closer to their property.
    Several medical studies focused in the region show higher 
incidence of kidney disease, chronic obstructed pulmonary 
disease and hypertension among coalfield residents. \7\
---------------------------------------------------------------------------
    \7\ Hendryx, M., et al.--Hospitalization Patterns Associated with 
Appalachian Coal Mining (2007). Ezzati M., et al.--The Reversal of 
Fortunes: Trends in County Mortality and Cross-Country Mortality 
Disparities in the United States (2008). West Virginians for Affordable 
Health Care--Early Deaths: West Virginians have some of the Shortest 
Life Expectancies in the United States (2009).
---------------------------------------------------------------------------
    There is a more environmentally and economically 
sustainable path Appalachia can take. Many counties in 
Appalachia are seeing economic gains in tourism and outdoor 
recreation activities that are only viable when Appalachia's 
unique natural features are protected.
    The potential for wind energy development along the 
mountain ridges of Appalachia would provide infinite economic 
and energy potential for the region. \8\ Like tourism, the 
viability for wind energy development is dependent on the 
preservation of the region's mountains and valleys.
---------------------------------------------------------------------------
    \8\ Department of Energy. American Wind Energy Association.
---------------------------------------------------------------------------
    There is no denying coal's significance to the culture and 
economy of Appalachia. However, mountaintop coal mining is a 
long term assault on Appalachia's environment, economy and 
culture. It needs to stop, and I hope that today's hearing will 
start us on that path.
    Before I turn to my Ranking Member, I will note that I 
intend to hold another hearing on this subject this fall. It 
will be a legislative hearing on the Cardin-Alexander bill, S. 
696, the Appalachia Restoration Act. This is not the last word, 
nor will it be, until these practices of mountaintop mining and 
associated valley fills are permanently outlawed.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thank you, Mr. Chairman. And I want to 
thank our Ranking Member for letting me have his seat for a 
little while.
    I am glad to be here, Mr. Chairman. I am the Ranking Member 
of the Interior Appropriations Subcommittee which is about to 
have its appropriations bill heard upstairs, or downstairs, 
whichever it is. So, I may have to step out for 10 minutes. But 
I will be back. And I have looked forward to this.
    I want to thank Senator Cardin for his leadership. I want 
to thank the witnesses for coming today, especially Paul Sloan, 
representing Governor Bredesen of our State of Tennessee with 
whom I have talked and who has a strong interest in the 
Cumberland Plateau area of our State and in protecting it and 
in protecting our ridgetops and our mountaintops, both for the 
natural beauty that we enjoy as Tennesseans and for the fact 
they attract a lot of visitors who kindly leave a lot of their 
dollars in our State.
    As Senator Cardin said, coal is an essential part of our 
energy future and I would to ask, Mr. Chairman, if I could have 
included in the record my article in the Chattanooga Times Free 
Press from March 15th of this year, talking about the 
importance of coal and why we need it.
    Senator Cardin. Without objection.
    [The referenced article follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Alexander. Coal is an essential part of our energy 
future. But it is not necessary to destroy our mountaintops in 
order to have enough coal. That is why I joined with Senator 
Cardin to make a simple amendment to the Clean Water Act that 
would end the practice of dumping coal mining waste into 
streams.
    Millions of tourists spend tens of millions of dollars in 
Tennessee every year to enjoy the natural beauty of our 
mountains, a beauty that is for me, and I believe for most 
Tennesseans, something that makes us especially proud to live 
in our State.
    I may come at this a little differently than some people. 
Saving our mountaintops is important to me, whether we are 
talking about cleaning up air pollution, whether we talking 
about stopping the practice of putting 50-story wind turbines 
on top of our scenic Appalachian mountaintops, or whether we 
are talking about stopping the practice of blowing off the tops 
of the mountains and dumping the excess waste into our streams.
    People come to Tennessee, and to other parts of Appalachia, 
to see the natural beauty, not to see smoggy air, massive 
ridgetop towers or excess waste piled into streams. That is why 
I have introduced legislation with Senator Carper of Delaware, 
for example, that would stiffen the requirements for emissions 
of nitrogen, sulfur and mercury from coal plants.
    And as Ranking Member of the Interior Appropriations 
Subcommittee, Senator Feinstein and I are talking with 
Secretary Salazar about an energy sprawl and making sure we 
find appropriate places for the large-scale new renewable 
energy projects that are coming on board in our Country, for 
example, that we put large wind turbines in the middle of Lake 
Michigan instead of along the coast and that we do not put them 
along scenic ridgetops between Georgia and Maine.
    The kind of mountaintop removal that we are talking about 
today, as far as I am aware, does not exist today in coal 
mining practice in Tennessee. It once did. But I would like to 
make sure that it does not start up again.
    The legislation that Senator Cardin and I have introduced 
and which will be considered in due time, does not ban surface 
mining as it is presently practiced in Tennessee, but it does 
help make sure that the beauty of our mountains and our streams 
are protected for those of us who live there and for our 
visitors.
    The United States produces 50 percent of our electricity 
from coal. It will continue to need that coal in the future. It 
is a primary source of energy. We need a lot of electricity and 
we have a lot of coal. We do not want to import our energy from 
overseas. Electricity from coal is cheaper, for example, that 
from wind and solar, and we know how to burn it cleanly, if we 
would only do it, accept for carbon.
    I have called for a mini-Manhattan Project to find ways to 
capture carbon from coal plants and I have urged Secretary Chu 
to reserve, if he can, a Nobel Prize in Science for the 
scientist who discovers a way to capture carbon from existing 
coal plants.
    So, I look forward to learning today more about the effect 
of mountaintop removal in our entire Country, and the effect 
that it might have in Tennessee if it were to be restarted.
    I thank Senator Cardin for his leadership on the issue and 
for chairing this hearing.
    Senator Cardin. Thank you, Senator Alexander.
    Without objection, Senator Boxer's, the Chairman of the 
full Committee, opening statement will be included in the 
record.
    [The prepared statement of Senator Boxer follows:]

             Statement of Hon. Barbara Boxer, U.S. Senator 
                      from the State of California

    Senator Cardin, I would first like to thank you for holding 
this hearing and for your leadership on oversight of 
mountaintop mining. This is an important issue.
    I also know you are working with Senator Alexander on 
legislation to stop the pollution and harm caused by this 
destructive practice, and I want to commend both of you for 
your efforts.
    This hearing will explore the impacts of mountaintop mining 
on our water quality and the health and prosperity of 
Appalachian communities. It is critical that we better 
understand what impacts these practices have and whether our 
nation's laws are doing their job at protecting the environment 
and the citizens' health.
    Mountaintop mining is one of the most destructive mining 
practices used today. It involves literally cutting the tops 
off of mountains and dumping the excess rock and soil into 
headwater streams that are critical for flood control, water 
quality, and the health of some of the nation's most precious 
ecosystems.
    Mountaintop mining operations have already filled or 
impacted more than 1,200 miles of Appalachian streams. And the 
mining waste associated with these sites can include a host of 
chemicals, including selenium, arsenic, lead, chromium and 
mercury that can leach into streams and rivers, severely 
degrading water quality.
    As we will hear from witnesses today, this practice has 
devastated the environment and harmed communities by displacing 
residents and ruining the natural resources on which they 
depend.
    In light of all of the impacts, I believe we have to take a 
hard look at why such a destructive practice is allowed to 
continue.
    Senator Cardin, I want to thank you again for holding this 
hearing, and I look forward to working with you to continue 
oversight of mountaintop mining and to ensure we are protecting 
our environment and the health of families and children.

    Senator Cardin. I am now pleased to recognize the Ranking 
Republican on the full Environment and Public Works Committee, 
Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    I would like to be able to stay for this whole hearing. I 
cannot do it because, as I think you know, we are still marking 
up the Defense Authorization Bill and I am the second Ranking 
Member on that. But I thank you for having this.
    I want to welcome Randy Huffman, the Cabinet Secretary from 
West Virginia's Department of Environmental Protection. I am 
anxious to read his statement and to hear what position they 
are coming from.
    Let me being by saying that I am concerned by the in-
fighting among Democrats when it comes to coal. As an example, 
just look at the Memorandum of Understanding on mountaintop 
mining between the EPA, the Army Corps of Engineers and the 
Department of the Interior.
    Now, some such as myself, are concerned. The MOU could mean 
economic hardship for Appalachia. But, consider the views of 
some of the radical global warming activists, such as NASA 
scientist and Obama supporter James Hansen.
    He recently criticized President Obama for the MOU. And 
here's what he said. He said, Mr. Chairman, the Obama 
administration is being forced into a political compromise. It 
has sacrificed a strong position on mountaintop removal in 
order to ensure the support of coal State legislators for a 
climate bill. Coal is the lynch pin in mitigating global 
warming and it is senseless to allow cheap mountaintop removal 
of coal while the Administration is simultaneously seeking 
policies to boost renewable energy.
    And, quoting on further, this is from the Los Angeles Times 
talking about this conversation, although the environmentalists 
had expected a new Administration to put the brakes on 
mountaintop removal, Representative Rahall and other mining 
advocates have pointed out that Obama did not promise to end 
mountaintop mining and was more open to it than his Republican 
opponent, Arizona Senator John McCain. This was during the 
Presidential election.
    A review of Obama's campaign statement, according to the 
Los Angeles Times, shows that Obama had expressed concern about 
the practice without promising to end it.
    So we have a lot of lawmakers that the Los Angeles Times 
refers to who, and this is a quote also from the Times, it says 
the mountaintop mining is politically sensitive because 
environmentalists were an active force behind Obama's election 
and the President's standing is tenuous among Democratic voters 
in coal States.
    Moreover, the Times writes, Obama needs support from local 
lawmakers for an energy agenda that would further regulate home 
State industries, but halting the mountaintop mining could 
eliminate jobs and put upward pressures on the energy crisis. I 
think we all ought to understand this.
    So, there is a lot of conflict here, a lot of in-fighting, 
and there is a lot of Beltway fighting on this, so I think that 
it is very appropriate that you have the Committee hearing.
    I know that the Ranking Member of your Subcommittee, 
Senator Crapo, will be here shortly and I will have to go back 
to Arms Services.
    Thank you, very much, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    I would like to thank Subcommittee Chairman Cardin and 
Ranking Member Crapo for holding today's hearing on the impacts 
of mountaintop mining on surface and groundwater resources and 
other indirect impacts in Appalachia.
    I also want to welcome Randy Huffman, Cabinet Secretary for 
West Virginia's Department of Environmental Protection, as well 
as the other witnesses testifying today. I look forward to your 
testimony. And it's great that so many residents from West 
Virginia traveled to see this hearing in person. Whatever side 
of the issue they're on, it's good to see so many citizens 
engaged in the political process.
    I want to emphasize today the importance of maintaining and 
protecting America's natural resources. Federal clean water 
laws should be followed and enforced for the citizens of this 
Nation, especially those in Appalachia. This is a fundamental 
value we all share. Yet it is not the only value to be 
considered: ensuring the economic viability of Appalachia, and 
the families who live there, is equally important. I believe 
these two values are complementary. Put another way, 
environmental protection can coexist with job creation and 
economic prosperity for families.
    I'm not sure this view is acceptable among environmental 
activists. For them, coal is evil and must be banned, no matter 
the cost to families in Appalachia and states that depend on it 
for jobs, for schools, and for energy security.
    I should also note that I'm somewhat concerned by the 
infighting among Democrats when it comes to coal. As an 
example, just look at the Memorandum of Understanding on 
mountaintop mining between the EPA, the Army Corps of 
Engineers, and the Department of the Interior. Now some, such 
as myself, are concerned the MOU could mean economic hardship 
for Appalachia. But consider the views of radical global 
warming activists, such as NASA scientist and Obama supporter 
James Hansen. Hansen recently criticized President Obama for 
the MOU. Here's what he said:
    ``The Obama administration is being forced into a political 
compromise. It has sacrificed a strong position on mountaintop 
removal in order to ensure the support of coal-state 
legislators for a climate bill . . . Coal is the linchpin in 
mitigating global warming, and it's senseless to allow cheap 
mountaintop-removal coal while the administration is 
simultaneously seeking policies to boost renewable energy.''
    Mountaintop mining has also provoked serious battles within 
the Obama administration. Consider this: the LA Times recently 
reported on a ``shouting match in which top officials from two 
government agencies were heard pounding their fists on the 
table . . .''
    But that's not all. Let me quote again from the LA Times 
story:
    ``Although environmentalists had expected the new 
administration to put the brakes on mountaintop removal, [Rep. 
Nick] Rahall [D-W.Va.] and other mining advocates have pointed 
out that Obama did not promise to end [mountaintop mining] and 
was more open to it than his Republican opponent, Arizona Sen. 
John McCain.''
    A review of Obama's campaign statements, according to the 
LA Times, shows that Obama had ``expressed concern about the 
practice without promising to end it.''
    This gets even more interesting. The Times notes that 
mountaintop mining ``is politically sensitive because 
environmentalists were an active force behind Obama's election, 
and the president's standing is tenuous among Democratic voters 
in coal states.'' Moreover, the Times writes, ``Obama needs 
support from local lawmakers for an energy agenda that would 
further regulate home-state industries, but halting mountaintop 
mining could eliminate jobs and put upward pressure on energy 
prices in a time of economic hardship.''
    So, it seems the Administration and its supporters in the 
environmental community can't make up their minds about coal 
and mountaintop mining. It's not hard to understand why. Those 
``local lawmakers'' the LA Times refers to, who are concerned 
about the future of their communities, are Democrats. Coming 
from Oklahoma, I would say that Democrats in my home State and 
in places like West Virginia tend to see coal and energy 
differently than, say, Speaker Pelosi, Henry Waxman, or the 
Obama administration. They tend have practical, rather than 
ideological, views about coal and energy.
    As they see it, coal provides jobs and secures livelihoods 
for families. Coal also is a source of reliable, affordable 
electricity that powers the economies of West Virginia, Ohio, 
and much of the Nation. Banning coal or sharply curtailing its 
use makes no sense to people who rely on it every day of their 
lives. They can't understand why Democrats in Washington and 
their friends in the environmental movement think coal is the 
root of all evil. When they see the likes of the Waxman-Markey 
global warming bill, which would destroy thousands of well-
paying jobs for hard-working people, or comments from the 
Secretary of Energy that ``coal is my worst nightmare,'' or 
from Vice President Biden, who vowed on the campaign trail that 
there would be ``no coal plants here in America,'' they scratch 
their heads and wonder whether such opinions are grounded in 
reality.
    As the Democratic leaders in Washington are preparing for 
the debate tomorrow on the disastrous Waxman-Markey bill, and 
as they continue to fight over whether coal should be banned, 
diminished, or remain central to the Nation's energy policy, 
the 77,000 hard-working people in Appalachia who work in the 
mining industry are wondering whether they have job security.
    My sincere hope is that the Democrats here in Washington 
can stop arguing about coal and listen to local officials from 
the heartland. Those officials--again, many of them Democrats--
do not want to abandon the Clean Water Act and the protections 
it provides to the families who live, work, and play in their 
communities. They want clean water and they should get it. But 
at the same time, they want the recognition that their economic 
livelihoods matter just the same, both for their communities 
and for the Nation.

    Senator Cardin. Thank you. And we all cooperated on 
scheduling this hearing. It was difficult to find a time 
because of the recess, so we know that people will be coming in 
and out. We may also be interrupted by a vote on the floor. So, 
it is going to be a challenge and we are going to do the best 
we can to get in everyone's testimony.
    We are going to start with John ``Randy'' Pomponio, the 
Director, Environmental Assessment and Innovation Division. The 
EAID is a multi-disciplinary organization with a broad range of 
regulatory and non-regulatory environmental responsibility. The 
division also has the leadership responsibility for 
environmental planning and analysis on environmental data for a 
better understanding of the conditions and trends within the 
Mountaintop Removal Valley Fill Initiative.
    Mr. Pomponio has worked on mountaintop mining permitting 
issues for EPA for more than a decade.
    It is a pleasure to have you with us today. Thank you very 
much.

 STATEMENT OF JOHN ``RANDY'' POMPONIO, DIRECTOR, ENVIRONMENTAL 
    ASSESSMENT AND INNOVATION DIVISION, U.S. ENVIRONMENTAL 
             PROTECTION AGENCY MID-ATLANTIC REGION

    Mr. Pomponio. Good afternoon, Mr. Chairman and members of 
the Subcommittee.
    I am Randy Pomponio, Director of the Environmental 
Assessment and Innovation Division in EPA's Philadelphia 
Office.
    Thank you for the opportunity to address the Subcommittee 
on EPA's efforts to protect and restore water quality and water 
resources affected by the surface mining of coal, including 
mountaintop removal and valley fill activities.
    EPA plans to more fully use its authorities under the Clean 
Water Act and the National Environmental Policy Act to address 
impacts of this type of mining activity on the aquatic and 
associated forest resources.
    Let me explain why we are so concerned about the issues 
surrounding ongoing mountaintop mining and similar surface 
mining activities that involve valley fills.
    First, the Clean Water Act sets out goals to restore and 
maintain the chemical, physical and biological integrity of our 
Nation's waters, so that they can protect human health and 
values and support the protection and propagation of fish, 
shellfish and wildlife, as well as recreation in and on the 
water.
    Second, the streams of central and southern Appalachia and 
the forests that play an integral role in the function and 
quality of those streams are very important assets and must 
themselves be protected to achieve the goals of the Clean Water 
Act.
    In my written testimony, I quote from a 2003 paper entitled 
Where Rivers Are Born, The Scientific Imperative for Defending 
Small Streams and Wetlands. That paper was written by 11 of the 
Country's most recognized aquatic experts. They say in their 
paper that the goal of protecting water quality, plant and 
animal habitat, navigable waterways and downstream resources is 
not achievable without the careful protection of headwater 
streams.
    Third, despite the best efforts of State, local and Federal 
agencies, too many small streams and wetlands of central and 
southern Appalachia are being buried and polluted. We must do a 
better job of reducing or eliminating site-specific and 
cumulative impacts associated with these mining activities.
    And, finally, while we continue to be guided by regulatory 
authorities, I believe we are now at a point where science and 
policy are beginning to converge to reduce the ecological 
impacts of surface mining practices such as valley fills.
    The EPA is excited to work with other Federal agencies as 
announced in our joint June 11th Memorandum of Understanding to 
strengthen the regulation and review of these mining 
activities.
    I would like to share a few facts and then move on to 
answer any questions you may have.
    Valley fills associated with surface coal mining bury 
streams and degrade water quality. Over the years, State and 
Federal agencies have worked hard to address water quality 
impacts associated with valley fills. However, between 1992 and 
2002, more than 1,200 miles of Appalachian streams have been 
filled at an average rate of 120 miles per year.
    Recent studies show that coal mining can result in long-
lasting impairments to aquatic biota in remaining streams below 
current and past mines. An EPA scientific study published in 
July 2008 shows that more than 63 percent of the streams 
sampled below mountaintop coal mining operations exhibit such 
impairments. In some large watersheds, such as the Coal River 
in West Virginia, more than half of the streams are impaired.
    Concentrations of selenium, a heavy metal naturally found 
in rock, can also be elevated in streams draining valley fills. 
Deformities in fish have been observed downstream of coal 
mining operations where selenium is a known pollutant.
    Dissolved and particulate organic carbon fuels the food web 
of headwater streams and this nutrient energy cascades 
downstream. Mining operations and associated valley fills 
essentially rob downstream aquatic communities of this energy 
source.
    Valley fills associated with surface coal mining can 
destroy forest, habitat and other important ecosystems. The 
southern Appalachians are among the richest ecosystems in the 
United States. They represent a bounty of timber, wildlife and 
recreational assets that deserve worldwide recognition. Forests 
of this area have been described as the largest remaining 
contiguous temperate deciduous forest in the world. One area of 
roughly 13,000 square miles centered in western Virginia 
contains 144 imperiled species.
    EPA's 2002 Landscape-Scale Cumulative Impact Study modeled 
terrestrial impacts based on surface permit data. That study 
basically suggested that, over a 22-year period, nearly 1,189 
square miles of forest could be removed and cleared. The loss 
of that forest would conservatively equate to the loss of 1.7 
million tons per year of carbon dioxide sequestration, the 
equivalent carbon dioxide that would be emitted from 300,000 
cars.
    Additionally, forests dampen flooding potential and act as 
natural nutrient sinks. One study estimates that forest cover 
of 1,189 square miles provides approximately $138 million per 
year in nutrient-cycling and waste treatment services.
    Valley fills and associated coal mining should be addressed 
on a cumulative watershed basis. Cumulative impacts are among 
the most critical aspects of regulating and assessing impacts 
of future mines. Rapid cumulative degradation of streams and 
loss of forest habitat may render some watersheds, and indeed 
entire eco-regions, unable to supply those services.
    So, thank you, Mr. Chairman, for giving me the opportunity 
to testify today. EPA understands the importance of domestic 
coal energy to our energy independence goals and to our 
Nation's economy. We want to ensure that this valuable resource 
is extracted in the least intrusive manner to the environment.
    Thank you.
    [The prepared statement of Mr. Pomponio follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Cardin. Well, again, thank you very much for your 
testimony and thank you very much for your work.
    I want to start with science, if I might, for a moment. 
President Obama has issued an Executive Order concerning trying 
to base our decisions on good science. What we are trying to 
find out is what good science tells us. Then, we obviously have 
to make the policy judgments. But if it not based upon good 
science, then everything else sort of falls by the wayside.
    You have made some conclusions as to some of the 
environmental risks associated with mountaintop removal. I want 
to know how confident you are in the science basis of the 
public health risk and the environmental risk.
    Mr. Pomponio. I want to give you a bit of a perspective. I 
am a Senior Manager with our Region 3 EPA Office, and, as such, 
I have a number of folks who work for me, some of whom apply 
their skills in the regulatory environment and the Section 404 
Program that assists in regulating mountaintop mining and 
valley fill. And some of them work in the field to collect 
environmental data, water quality data, and aquatic impact 
data, to set the science, to set the stage for the science, and 
inform us of what is going on.
    I am very confident in the science that we have in Region 3 
and across the country that discusses the impacts of valley 
fill activities on streams in central and southern Appalachia. 
There are a couple of reasons for that. The headwaters stream 
citation that I quoted in my prepared remarks strongly states 
that you cannot achieve the goals of the Clean Water Act 
without protecting headwater streams, Eleven scientists 
commented on that issue, and they cited 235 references when 
they did so. It is common knowledge that these systems, even 
these small systems, are necessary networks that provide 
ecological benefits, water quality control, flood control and 
those types of things downstream.
    So, as we look at valley fill activities over the years, we 
examined a lot of referenced information and a lot of studies 
that had been done in the past by recognized scientists. As we 
evolved in our position on mountaintop mining, we began to 
notice that, one of the things that we really needed to do, is 
put the period on the end of whether or not EPA's perspective 
was represented by those studies.
    Many of you may have heard of the Pond-Passmore Study. We 
had our own people go out into the field over a period of a 
number of years and check downstream water quality impacts 
below valley fill operations. And what Pond and Passmore found, 
and published in a peer reviewed journal, was that using the 
West Virginia method of demonstrating downstream aquatic 
impacts to insects, which is a fairly typical method used by 
States and the Federal Government, 63 percent of the time 
downstream of those valley fills water quality impacts to the 
aquatic insects were recognized to a point where we perceived 
that the narrative water quality criteria of the State would 
have been exceeded.
    A different method that Pond and Passmore and others are 
looking at, the GLIMPSS method, improves the accuracy of such 
measures. With the GLIMPSS method 93 percent of streams 
downstream of those valley fills were impacted.
    So, we are very confident in our information. Having said 
that, we have talked to the State of West Virginia's Deputy 
Director, Randy Hoffman, a colleague of mine, about concerns he 
has with our interpretation of the Science. We have asked the 
scientific community within EPA to once again review the 
information that we have collected to make sure that it is 
accurate and of high quality.
    Senator Cardin. Thank you for that answer. We will include, 
without objection, the report that you are referring to, 
Downstream effects of mountaintop coal mining: comparing 
biological conditions using family- and genus-level 
macroinvertebrate bioassessment tools. We will include that in 
the record of the Committee.
    [The referenced document follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     
        
    Senator Cardin. I know that Secretary Huffman will be 
testifying later and he does call into question as to whether 
you have used broad-based scientific information or one study 
within the agency. I think you have already answered that. This 
is relying on broader scientific information than just one 
member of your staff.
    Mr. Pomponio. Yes, it is.
    Senator Cardin. Thank you. Let me talk about the cumulative 
effect, because I think that is an extremely important point. 
You look at one application, you say, gee, you know, it is only 
a few acres, it does not seem like it could have that much of a 
long-term impact on the environment.
    But you talked in your statement about the cumulative 
effect that we now have. I think in one report it is 1,700, is 
it miles? I know it is a unit. I said in my opening statement, 
of streams that have been affected, we have found thousands of 
acres being affected and not just a few. Can you talk a little 
bit more about how you need to look at the cumulative impact 
that an application approval might mean, if we continue at the 
current pace, what impact this has on the environment?
    Mr. Pomponio. Yes. I am glad that you worded it that way. 
We need to look at the cumulative impact. I do not think that 
we have been doing a good job of doing that at all levels.
    We need to look at cumulative impacts for several reasons. 
One is that there is an integral relationship between the 
forest and the streams in the area. When you lose forest, you 
lose a lot of the capacity of the streams to process and 
transfer the organic materials that feed the critters 
downstream. You lose the capacity of the forest to cool the 
streams. You lose transpiration through the leaves to help 
attenuate flooding problems and those sorts of things.
    These little streams, which some people estimate represent 
80 percent of the water resource in the entire Country, are 
like capillaries in your blood system. They are what travel 
through the landscape, capture the pollutants, and clean those 
pollutants, through the microorganisms in the streams 
themselves and through sediment filtration in the stream 
bottom. And we frankly do not know where the tipping point is 
in losing 1 stream, 5 streams, or even 18 streams in a 
particular watershed. So, our position is that we need to do a 
better job with that cumulative impact assessment.
    In some of the watersheds in the region that I deal with, 
the footprint of the mining operations, mountaintop and other 
surface mining, encompass up to 20 to 30 percent of the 
watershed area. That, just to a lay person, would cause one to 
suggest that there needs to be some more rigorous opportunity 
to take a look at what that might mean. Downstream in the creek 
watershed I believe that upwards of half of the streams have 
been listed on the 303(d) list, which is a list of stream miles 
that do not necessarily meet water quality criteria and 
standards.
    So, as we look at all of these mines and as we look at them 
one by one, we have to ask ourselves, in a particular 
watershed, can the watershed be resilient enough, and have a 
carrying capacity in terms of natural attenuation of problems, 
to accept that one mine? Or can it not accept that one mine? I 
do not believe we know the answers to those questions, and I 
think we need to do a better job.
    Senator Cardin. And let me ask you, last, on the issues of 
forest itself, you commented on the importance of the forest 
cover as it relates to the water quality and the environmental 
conditions generally. We know that on mountaintop removal, the 
forest is basically destroyed.
    My question is, after you have done mountaintop removal, is 
there an adequate remedial program that can compensate for the 
loss of the forest that was there previous to the mountaintop 
removals or adequate ways that we can try to compensate for 
this?
    Mr. Pomponio. I think that is a two-part answer again. 
Practices in the past that involved compaction of the soil and 
the distribution of non-forest cover plants, did not necessary 
give one a lot of hope for a lot of quick or even mid-term 
forest recovery.
    I do not quite know about the future. There are different 
operations now that are learning from the past. They are 
avoiding soil compaction and preserving topsoil, practices that 
were not common previously. I think it still has to be examined 
as to whether or not these methods will actually achieve 
reforestation.
    Senator Cardin. And I can appreciate that. I just raise an 
observation, and that is we do not know where technology will 
take us. I am sure there are going to be remedial efforts that 
will be effective in dealing with some of the damage that has 
caused.
    We do know the value of forest. We do know the values of 
vegetation. Once that is destroyed, it puts you in a very 
difficult position to try to catch up. The remedial programs 
may help a little bit, but when you have eliminated that 
natural protection, for so many reasons to our environment, 
including our concerns about carbon emissions, it is difficult 
to see how you can have an effective policy.
    And the last point on this is runoff. When you flatten the 
land, you certainly make the runoff issues much more 
complicated to try to deal with, with sediment, et cetera. And 
toxics. It makes it extremely challenging to figure out how the 
remedial programs could possibly compensate for the condition 
that was there before the removal.
    Mr. Pomponio. I agree with that.
    Senator Cardin. Well, let me thank you for your testimony. 
We appreciate it very much. As I said in the beginning, this 
will be a continuing effort of our Subcommittee and I think you 
have given us a good start to our work.
    Thank you very much.
    Mr. Pomponio. You are welcome. Thank you.
    Senator Cardin. We are going to start with the second 
panel. I believe we will be interrupted during that period. I 
am looking in my BlackBerry and it looks like there are votes 
called at about 4:10 p.m. But why do we not get started with 
our second panel.
    On our second panel, we have Paul Sloan, the Deputy 
Commissioner of the Tennessee Department of Environment and 
Conservation. Mr. Sloan oversees the Tennessee regulation of 
coal mining regulations. Tennessee prohibits the practice of 
valley fills and maintains a successful extraction industry. 
Mr. Sloan can also speak to the regulatory reforms on the coal 
industry that would require better environmental protection.
    Randy Huffman is the Cabinet Secretary of the West Virginia 
Department of Environmental Protection. West Virginia's 
Department of Environmental Protection has oversight and 
regulatory authority of the valley fills associated with 
mountaintop mining sites in that State.
    Maria Gunnoe is a community organizer of the Ohio Valley 
Environmental Valley Coalition. Mrs. Gunnoe is a property owner 
in Lindytown, West Virginia, whose land has been impacted by 
the nearby mountaintop removal operations. She just received a 
prestigious 2009 Goldman Environmental Prize for organizing 
work in the coal fields. This prize is given to one person per 
continent per year. She has been the subject of several 
documentaries and is a frequent speaker and advocate for coal 
field communities.
    And Dr. Margaret Palmer, Laboratory Director, Chesapeake 
Biological Laboratory at the University of Maryland Center for 
Environmental Sciences. I am particularly pleased that Dr. 
Palmer has joined us. She is well respected in our State of 
Maryland. The broad objective of Dr. Palmer's research is to 
understand what controls streams, ecosystems, structures and 
functions. She specifically focuses on restoration ecology and 
how land use, hydrology and geopathology influence the health 
of running water ecosystems. Dr. Palmer is considered an 
international expert on freshwater systems.
    And with that, we will start with Secretary Sloan.

  STATEMENT OF PAUL L. SLOAN, DEPUTY COMMISSIONER, TENNESSEE 
           DEPARTMENT OF ENVIRONMENT AND CONSERVATION

    Mr. Sloan. Chairman Cardin and Members of the Subcommittee, 
thank you for the opportunity you have given me to testify this 
afternoon. I am Paul Sloan, Deputy Commissioner of the 
Tennessee Department of Environment and Conservation.
    Coal mining in Tennessee is best considered in the context 
of the rich cultural and natural heritage of the Cumberland 
Plateau, which is part of a 37 million eco-region stretching 
some 500 miles through six states, a region said to be the 
largest temperate hardwood plateau in the world.
    In Tennessee, the plateau stretches from the Alabama border 
northeast to the Kentucky and Virginia borders. Its watersheds 
drain to the east and west, into the Tennessee River and the 
Cumberland River, and include significant portions of our 
60,000 miles of rivers and streams in Tennessee. These two 
major watersheds contain some of the most biologically diverse 
freshwater streams found anywhere in the United States.
    Roughly 600,000 acres of the plateau in Tennessee are 
public lands. Over 600 miles of State scenic highways thread 
this landscape, connecting more than 80 State and Federal 
parks, recreational, natural and wildlife management areas, as 
well as the Obed and National Wild and Scenic River and the Big 
South Fork National River and Recreation Area.
    In short, the Cumberland Plateau is an invaluable resource, 
a gem for public recreation and ecological diversity.
    Coal mining on the plateau has been conducted since the 
early 1800s. Much of the estimated 50,000 acres of pre-1977 
unregulated mining has left a legacy of abandoned mine lands 
that pose ongoing health and safety risks as well as water 
pollution from sediment and acid mine drainage.
    Approximately 3 million tons are mined per year in 
Tennessee, significantly less than our sister States, West 
Virginia, Alabama, Kentucky and Virginia, and well below our 
own peak of 11 million tons per year in the early 1970s.
    For the past 25 years, mining oversight in Tennessee is 
under SMCRA and has been administered not by the State, but by 
OSM. The State implements the Federal Clean Water Act as well 
as the Tennessee Water Pollution Control Act, which provides 
that the waters of the State are a public trust, that the 
people of Tennessee have a right to unpolluted waters, and that 
the government has the obligation to protect that right.
    In our implementation of the Federal and State mandates, 
Tennessee does not permit burial of streams for valley fills. 
There is neither sufficient social nor economic justification 
for such unalterable environmental and ecological insults. In 
Appalachia, mountaintop removal and water quality are 
incompatible.
    Tennessee Governor Phil Bredesen recently signed into law a 
Responsible Mining Bill that codifies our requirement that all 
mining must maintain a 100 buffer foot on either side of all 
un-mined streams and prohibits mining of coal seems that have a 
high acid-bearing overburden, without demonstrated technology 
capable of properly handling such materials.
    We very much support the purpose and intent of the 
Appalachian Restoration Act to prohibit filling streams with 
waste materials from coal mining and to bring nationwide 
consistency to this issue. We also support the intent of the 
Clean Water Restoration Act to bring consistency and clarity to 
what are Federal jurisdiction waters in the first place.
    Responsible mining is possible in Appalachia. But only if 
the regulatory oversight and management are guided by the most 
current information available in order to consistently avoid 
unnecessary impacts. This is why Governor Bredesen has 
requested OSM to do an environmental impact statement in regard 
to Tennessee coal mining. The goal of this request is to have a 
rigorous, objective analysis of all impacts of coal mining on 
Tennessee's economy, as well as the environment.
    For the same reason, we applaud the recent MOU among EPA, 
the Corps and Interior, calling for an interagency action plan 
to reduce unnecessary environmental impacts. In support of 
these efforts, we hope Interior's Fish and Wildlife Service 
will revisit the 1996 biological opinion on consultation under 
the Endangered Species Act, and that EPA will update its 1985 
effluent guidelines for mining operations.
    In closing, I want to restate my appreciation to the 
Subcommittee for taking up this issue. As stewards of the 
public trust, both Federal and State government have a high 
duty to resource protection in the mountains of Appalachia. So 
it is my hope that Appalachian mining practices will be limited 
to those known to be compatible with preserving the mountains 
and streams of this extraordinary area.
    Thank you, sir.
    [The prepared statement of Mr. Sloan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
       
    Senator Cardin. Thank you very much for your testimony.
    Secretary Huffman.

 STATEMENT OF RANDY HUFFMAN, CABINET SECRETARY, WEST VIRGINIA 
             DEPARTMENT OF ENVIRONMENTAL PROTECTION

    Secretary Huffman. Thank you, Mr. Chairman. Good afternoon. 
I want to thank you for the opportunity to be here today to 
represent West Virginia's concerns in this dialog over 
mountaintop mining.
    Senator Cardin. Would you just turn your microphone on, if 
you have not?
    Secretary Huffman. I apologize. It says it is on. Yes.
    Senator Cardin. Good.
    Secretary Huffman. Again, thank you for the opportunity to 
be here today to represent West Virginia's concerns in this 
dialog over mountaintop mining and its impact on water quality.
    As you know, West Virginia is at the center of the debate, 
from both a regulatory perspective and a geographical 
perspective, since the majority of the Appalachian Highlands 
where mountaintop mining is practiced are located in West 
Virginia.
    It is important that we first, though, frame the discussion 
in proper context. Mountaintop mining is one of many surface 
mining methods recognized and regulated by the Surface Mining 
Act. And, as the State's top environmental regulator, it is not 
something that I come here today with the intention of 
promoting for or speaking against.
    What must be understood is that the connection between 
protecting water quality and the practice of mountaintop 
mining, is not a unique one. Nor is the assumption by many that 
valley fills are only associated with mountaintop mining.
    In fact, the debate cannot be limited to surface coal 
mining alone. Hard rock surface mining, other development 
activities, and any other activity that removes vegetation and 
breaks rock can be subject to the same types of concerns and 
issues.
    There are may surface mines that are not mountaintop 
removal by definition which require valley fills. And in fact, 
in West Virginia, 90 percent of all surface mining activity 
contains at least one fill. And, as you know, 40 percent of our 
State's coal production comes from surface mining.
    Also, the Clean Water Act and West Virginia's Water 
Enforcement Program require the same levels of protection for 
all mining activity, regardless of whether it is mountaintop 
mining by definition.
    While West Virginia is concerned about losing the 
opportunities associated with mountaintop mining for future 
economic development, our greatest concerns are the uncertain 
regulatory climate EPA has created and the unintended 
consequences of their recent actions that have the potential to 
significantly limit all types of mining.
    I believe it is important to understand West Virginia's 
role in enforcing the Clean Water Act. While West Virginia is 
concerned about the economic impacts that would accompany any 
policy change that reduces coal production, my agency's role 
is, and hence our primary objective in this discussion is, the 
protection of our water resources.
    The Clean Water Act clearly allows EPA to delegate portions 
of the act to the States and we believe that was Congress' 
intent as they recognize the States as being better positioned 
to regulate than the Federal Government.
    The DEP in West Virginia has a very effective and 
progressive regulatory program. We have been regulating mining-
related impacts to surface and groundwater since we received 
primacy over SMCRA from the Office of Surface Mining in 1981. 
Our program has evolved a great deal since then and continues 
to grow and change as research and technology help us learn 
more about health and environmental impacts from our industrial 
processes.
    Concurrently with the primacy of SMRCA, we have delegated 
authority from EPA to oversee the Clean Water Act, section 402, 
permitting program, and section 401, which is the certification 
of Federal permits. In fact, before one certification 
authority, which is the EPA's current challenge to West 
Virginia's program, is not delegated by EPA but is delegated to 
the States by Congress through the Clean Water Act itself.
    West Virginia received awards in 2005 and 2007 from the EPA 
for ``outstanding performance in implementing their NPDES 
program.'' EPA's recent inquiry scrutiny over the Army Corps of 
Engineers' authority to issue valley fill permits is intended 
to be a way to curb mountaintop mining. EPA has clearly stated 
this on numerous occasions.
    The problem is, in so doing, the EPA's selected venue has 
been to attack West Virginia's 401 certification program. In 
short, EPA is not claiming that West Virginia is failing to 
enforce Federal law. They are wrongly claiming that West 
Virginia is failing to enforce its own rules, which have gone 
through proper rulemaking channels and which, ironically, EPA 
has approved as being protective.
    Further, this position by EPA is new. It evolved out of 
Region 3 in Philadelphia since January in the absence of a 
Regional Administrator appointed by President Obama.
    Even as coal's future is being debated, West Virginia is 
positioning itself to continue to be an energy producing State. 
In just the past month, Governor Joe Manchin has signed into 
law three pieces of legislation that do just that: one 
requiring coal burning power plants to diversify their energy 
portfolio to include alternative and renewable energy; the 
second creates a regulatory framework for establishing a 
permitting program for carbon capture and sequestration; and 
the third, turning reclaimed surface mine lands into a resource 
that can be used in a post-mining economy.
    I will close with a comment about the latter. West Virginia 
and our Nation needs job and we need coal. Nothing in the 
debate over surface mining is going to change that in the short 
term. But in the long term, as we mine and use a nonrenewable 
resource, and as we develop alternative energy sources, the 
people that live in the steep, narrow terrain of southern West 
Virginia need the opportunities created by surface mining.
    And as the State's regulatory agency, the DEP in West 
Virginia needs consistency and clarity from EPA in order to be 
effective regulators. And right now, we do not have that.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Huffman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]        
    
    Senator Cardin. Thank you very much for your testimony. I 
appreciate it very much.
    Maria Gunnoe. First of all, congratulations on the award 
that you received. That is quite an accomplishment.
    Ms. Gunnoe. Thank you, thank you very much.

STATEMENT OF MARIA GUNNOE, ORGANIZER, OHIO VALLEY ENVIRONMENTAL 
                           COALITION

    Ms. Gunnoe. My name is Maria Gunnoe. I am from southern 
West Virginia, Boone County. Boone County is the No. 1 coal 
producing county in West Virginia, next to McDowell County, and 
they are both equally impoverished.
    Energy that is produced from mountaintop removal coal 
mining is, basically it is bringing temporary jobs. This is 
temporary energy. And the destruction is permanent. We get what 
is left.
    I hear a lot of professionals, if you will, defending 
mountaintop removal mining in the name of economic development 
and that is, quite honestly, not true. There is no economic 
development desired if people do not live there. If people 
cannot live in these areas, there is no need for shopping 
malls. There is no need for infrastructure if people cannot 
live there.
    Basically, what goes on where we live at, there is a 
massive amount of blasting that goes on around our homes. And 
this blasting, of course it is unnerving to the people that 
have to live in those conditions, and I am one of those people. 
What it does to our air quality is horrible. Myself and my 
children actually suffer from the causes of the blasting at 
this mine site.
    My home is located here. This is the top of my house. Our 
property, we have acreage, a lot of acreage, that covers this 
area here. This is the mine site behind my home. This here is 
the valley fill. There are two ponds at the toe of this valley 
fill. These ponds are to settle out the coal mines that wash 
through this massive operation. And in 2003, these ponds failed 
and when they failed, they devastated my home. It literally 
washed away about five acres of my land, turned it into a 
landslide and washed it away.
    At that point, I began organizing in the communities that I 
live in. This is the people that I live around, the people that 
I grew up with. This is a common impact. When you have a valley 
fill, what you have is not only polluted water, but you have a 
mountaintop removal site that is allowing this water to run 
freely, there is nothing slowing it down, into this valley 
fill, which has two ponds that sit at the bottom of it, and it 
causes catastrophic flooding. This is not only me. This is on 
people throughout the area I live in.
    The blasting is one nightmare. But the water pollution is 
horrible. We can live without energy in West Virginia. But we 
absolutely cannot live without good, healthy, clean water.
    One of the things that I feel compelled to address is jobs. 
In 1950, we had 150,000 coal mining jobs in the State of West 
Virginia alone. Today, we have less than 15,000 coal mining 
jobs. Now, you will hear a lot of difference in those numbers. 
But, honestly, I am talking about coal miners. I am not talking 
about the people who work in the office. I am not talking about 
the people that work in the janitorial departments. I am 
talking about the coal miners, the people that actually mine 
coal. There are less than 15,000. I have heard 12,000.
    But this is not about jobs. The mountaintop removal 
absolutely is not about jobs. Mountaintop removal is a human 
rights issue. Myself and my children have a right, as United 
States citizens, to clean water. And that right is being taken 
away from us in the State of West Virginia.
    And there is no replacing that. You cannot replace my 
water. You can give me city water access, but you cannot 
replace the springs and the streams and the well water that has 
sustained our lives for hundreds of years. There is no 
replacing that. There is no reclaiming the land that has been 
destroyed. It will never be again what it once was.
    We need to decide, as a Country, is it really, can we 
really keep doing this? Can we really keep flattening mountains 
to produce energy? I say no. Because there are only so many 
mountains and we will run out. We will run out of coal. The 
USGS suggests that we have 20 years of mineable coal left. We 
need to start making a plan right away so that we do not leave 
our children in area of devastation: no water, no energy and no 
plan. We need to think about what we are doing to our children.
    [The prepared statement of Ms. Gunnoe follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Cardin. Well, thank you very much for your 
testimony. You really do put a face on the issue. A lot of time 
we hear about the people who are affected, and I think your 
personal story is very compelling and I thank you very much for 
that.
    Dr. Palmer, with your permission, I think we are going to 
take about a 10-minute recess and we will be back.
    The Subcommittee will reconvene in about 8 to 10 minutes. 
There is a vote currently pending on the floor of the U.S. 
Senate and I will return as soon as I can cast my vote.
    Thank you.
    [Recess.]
    Senator Cardin. I apologize for the interruption, but we 
had a vote on the Senate floor. I think we will be OK and I 
will be to complete the hearing.
    Dr. Palmer. I look forward to your testimony.

 STATEMENT OF MARGARET A. PALMER, Ph.D., LABORATORY DIRECTOR, 
    CHESAPEAKE BIOLOGICAL LABORATORY, UNIVERSITY OF MARYLAND

    Ms. Palmer. Thank you. Good afternoon. I am very happy to 
be here.
    I have been researching streams and watersheds for more 
than 25 years and, while I am a professor at the University of 
Maryland, I also have a home in West Virginia and my family is 
from the Appalachian regions of North Carolina. So this is 
close to my heart.
    There is irrefutable scientific evidence that the 
environmental impacts of mountaintop removal are substantial 
and they are permanent. Related to this, I want to make three 
points today.
    First, as you have heard, many beautiful headwater streams 
such as the one in this photograph are destroyed when they are 
buried by fills. Headwater streams are exponentially more 
important than their size would suggest. In watersheds, they 
function very much like the smallest branches in our lungs that 
deliver oxygen that nourishes our entire body. Without them we 
would slowly suffocate.
    As headwaters are lost, the cumulative impacts are 
significant. The larger streams and rivers below become unable 
to support life.
    The second point I want to make is related to the pollution 
that results from the process of mountaintop removal. Chemicals 
that leach from the valley fills are a result of exposure of 
mine rocks to air and water, and this results in the movement 
of elevated levels of sulfate, aluminum, selenium and many ions 
into the water that permeates the watershed downstream.
    There is a very large body of science documenting this and, 
in fact, Mr. Huffman's agency, the West Virginia DEP, has a 
very long list of mine-impacted streams on the 303(d) list. And 
this listing is influenced by contaminants that are in the 
water, not influenced by those in the stream sediments where 
they actually are largely stored. And, also, the stream 
sediments are where the fish feed and, of course, when we walk 
in streams, we are walking where these contaminants are stored.
    These contaminants move. They extend great distances 
downstream with toxic effects on organisms. The levels of 
selenium that occur in these systems can cause things like huge 
curvatures of the spine in fish, two eyes on one side of the 
head; there is no question that these levels of contaminants 
are a problem. Unfortunately, they also persist for a very long 
time even after the mines are not active.
    Now, let us talk about Mayflies for a few minutes. We have 
been hearing a lot of people saying, well, is it about bugs? Is 
it about bugs versus people? Well, absolutely not. It is about 
what the loss of Mayflies represents.
    We use rats to test for effects of toxic materials on 
humans. Well, guess what? For aquatic streams, for streams and 
rivers, we use bugs, small bugs that live in the streams. Their 
loss tells us something is wrong with the streams below valley 
fills. And I can tell you that you would not find a single, 
credible scientist that would refute this fact. I certainly 
would not allow my children to wade and play in streams that 
have these levels of contaminants.
    The third point I want to make is related to, is there 
evidence that mitigation is actually working? And I am very 
sorry to say that, unfortunately, there is not evidence of 
that. Attempts to create streams to replace lost ones have been 
made by trying to make ditches with similar structural features 
to real streams. But there are no measurements demonstrating 
that they function like real streams.
    Just as an aside, in scientific jargon, structures are how 
things look and functions are how they work.
    Digging a ditch, adding rocks and diverting water to it 
does not make a living functional stream. No direct measurement 
of how streams function have been provided for streams that are 
created, or ones that are restored, in some cases for full 
mitigation credit after mining.
    Now, just to drive this point home, it is easy to 
understand the difference between structure and function when 
you think about routine health measurements. For example, my 
husband is a really good-looking guy. He is 6 foot 2 inches, he 
weighs about 185 pounds which are his ``structural features.'' 
But guess what? He has really high blood pressure. He is at a 
high risk of heart disease. Can you imagine a doctor giving him 
a clean bill of health without taking some measurements of how 
his systems are functioning? His blood pressure, his heart 
rate, his metabolism of glucose, et cetera.
    So, from a scientific point of view, it is equally 
unacceptable to say a stream is healthy ecologically just 
because there are rocks in it and there is water in it.
    In summary, Mr. Chairman and fellow Senators, mountaintop 
mining first causes permanent environmental impacts. Second, 
networks of streams that are not directly touched by the mining 
activities are biologically impaired because the water quality 
impacts permeate downstream great distances. Third, there is no 
evidence whatsoever that mitigation is replacing what is lost. 
Measurements of ecological functions are not even being done.
    Thank you.
    [The prepared statement of Ms. Palmer follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Cardin. Well, thank you, Dr. Palmer, and thank all 
of you for your testimony. Let me ask a couple of questions and 
then I will yield to Senator Alexander.
    Dr. Palmer, you make a pretty convincing case in regards to 
public health and environmental risks associated with the 
contaminants from mountaintop removal as well as the loss of 
the headwaters the impact that has had on the environment.
    My question to you is, how effective would remedial 
programs be to mitigate these damages? Are there ways in which 
we can restore the environmental damage caused by these fills? 
Is there any effective way to reverse this after the damage has 
been done?
    Ms. Palmer. Well, so far there is no scientific evidence 
that that can be done. I mention that the impacts persist a 
very long time, even after mining has stopped. The U.S. 
Geological Survey and others have done studies, for example, in 
watersheds where mining has been ceased for a number of years 
and they are still finding high levels, for example, of 
selenium. In some cases, are talking 50 years out.
    So, what it means is that you really cannot reverse that, 
not at least in any time span that we can relate to as humans.
    Two forms of mitigation are the ones that I have seen most 
often: attempts to create streams, as I mentioned, by digging a 
ditch and moving water through it; and, attempts to restore 
streams that are nearby.
    When you have taken the entire top of the mountain off, you 
have fundamentally altered the hydrology. Headwater streams are 
supported primarily, or to a large extent, by groundwater 
inputs. When you have a valley fill in, and a flat top 
mountain, when it rains on that mountain, the water moves into 
the valley fill and it actually infiltrates very rapidly. You 
get a larger discharge out of that valley fill than those 
streams below it have ever experienced. It tends to be much 
more constant. And very little of that, or none of that, has 
passed through the normal groundwater paths that a healthy 
stream would receive.
    Keep in mind that when it rains in a healthy watershed, the 
vegetation, the soil bacteria and those very specific layers of 
soil that are present in these forests help remove 
contaminants, if there are any, in the rainwater. They also 
supply the water with nutrients. And as that water soaks into 
the ground, it reaches a point and it moves laterally to the 
headwater streams. That is why they say this is where rivers 
are born.
    So, it is hard to imagine, without geological time passing 
and getting new mountains back, how you could possibly ever 
replace those streams that are lost.
    Senator Cardin. Well, thank you for that answer.
    Secretary Huffman, I want to get to your point about the 
fact that there is more fill than just coming from mountaintop 
mining. I understand that point. I want to know what you think 
you can do in West Virginia to deal with the headwater issue. 
From your testimony, you indicate that is an issue. What can be 
done in order to restore or to preserve the headwater streams 
that you think is effective without denying these permits?
    Secretary Huffman. Well, there has been a lot of activity 
over the past 10 years. We have been through a cycle, at a more 
lower level that is similar to the debate today in the last 
1990s and the early part of this decade regarding some of these 
similar type activities. One of the many results of that was an 
attempt to come up with different formulas for reducing the 
size of the valley fills because it was recognized that that 
was an issue that was growing in West Virginia.
    Subsequently, the sizes of the valley fills that are being 
permitted have shrunk. But I think an unintended consequence of 
that is the number of valley fills has increased.
    There is a lot of work that needs to be done. A lot of the 
things that Dr. Palmer is talking about are currently being 
researched and experimented with and we think that is the 
nature of environmental regulatory programs and the protection 
of the environment is for the science to continue to be the 
driver, we agree with that, and research dollars need to be 
invested and solutions sought. Absolutely.
    Senator Cardin. Let me yield to Senator Alexander. I will 
have a few questions after Senator Alexander is finished.
    Senator Alexander. Thanks, Mr. Chairman. Again, I apologize 
to the witnesses for, well, when I was Governor I could 
schedule things properly. But the Senate does not work that 
way, does it?
    [Laughter.]
    Senator Alexander. Our subcommittee hearing ran and I had 
to be there for it and then we had our vote. So, I will read 
the testimony that you have sent it and consider it very 
carefully. It will be a part of our record. And this is just 
the first of our hearings on this subject.
    I want to Mr. Sloan, if I may, and if I ask you a question 
that you answered when I was not here, excuse me, but I would 
like to make sure that I get it.
    Am I correct that, as we define it today, the coal mining 
practices in Tennessee do not remove the tops of mountains and 
place them in streams? Is that correct today?
    Mr. Sloan. That is correct, Senator.
    Senator Alexander. In the past 15 or 20 years, did we have 
mountaintop removal, by that definition?
    Mr. Sloan. Not by that definition. We did have very 
limited, our staff has gone back some 15 or more so years ago 
and identified one case where we had a mountaintop removal 
which we would define there as that the mountain was not 
returned to some proximate contour of the historical contour of 
the mountain. That does not mean that there had not been 
mountaintop landscapes significantly affected by the mining 
activity, but not mountaintop removal as we defined it.
    Senator Alexander. Would it be possible, under current 
Federal law, for a mountaintop, well, for coal mining, to take 
excess waste and dump it in streams in Tennessee?
    Mr. Sloan. Boy, that is an interesting question. It is 
particularly interesting for us because we administer both the 
Federal Clean Water Act as well as our own Water Pollution 
Control Act. And under our Water Pollution Control Act, there 
is no question that we do not allow it.
    In administering the Clean Water Act, and particularly the 
401 certification, it would be our, it is a hypothetical, in a 
way, because we are administering both now. But, my thought is 
that we would not certify valley fills under 401 simply because 
we could not be satisfied that there would be no net loss of 
resources.
    Senator Alexander. But your administration may not be 
there. Will it be there for another year-and-a-half? And would 
you agree that, in order to make sure that we do not have those 
excess wastes put in valley streams again, that we should 
change the Federal law in the way that Senator Cardin and I 
have suggested?
    Mr. Sloan. I would absolutely concur with that. I think for 
West Virginia, Virginia, Kentucky, Tennessee, all of 
Appalachia, all those of us who are charged with oversight of 
environmental laws, consistency, clarity, is at a premium. And 
we do not have it today. And there are a number of pieces of 
legislation, particularly the Appalachian Restoration Act, I 
think, that brings clarify and consistency, and that is very 
important to us.
    Senator Alexander. We have talked about mining practices in 
Tennessee. But is it not possible, or likely, that mountaintop 
removal has had some effect on waters that come into Tennessee 
from other States?
    Mr. Sloan. Very possible. I have to say that certainly we 
share some very important rivers with our neighboring States, 
one of which is Virginia. I am very proud of an MOU that we 
have with Region 3 and Virginia DMME, the Department of Mining, 
Minerals and Energy, as well as Virginia DE, too, which focuses 
on the Clinch and the Powell and the extraordinary aquatics 
there.
    But it really does take a regional approach. It takes 
partnership. I am delighted that we have it there and we are 
making, I think, some good progress on the relative impacts 
occurring in the neighboring States.
    Senator Alexander. I remember that, some time ago, when I 
was still Governor, Governor Allen and I did some work together 
on that.
    I have one last question, if I may. Mr. Chairman, most of 
our coal mining in Tennessee is in four upper Cumberland 
counties which are naturally beautifully counties and they have 
historically been among our poorer countries, more low-income 
families. That is changing somewhat now, based on my visits, 
because of the natural beauty of the area and the parks in the 
area. People are moving in. Money is coming in, creating more 
tourism and jobs.
    I know the Governor of Tennessee has talked to me before 
about his interest in evaluating how we can make certain that 
we have appropriate coal mining in the area but, at the same 
time, we do not do anything to damage the natural beauty of the 
area, not just for environmental reasons, but because of the 
importance of raising family incomes by tourism and by bringing 
people in who buy farms and buildup the property tax.
    I think back on the Great Smoky Mountain National Park, 
which is celebrating its 75th anniversary this year. While it 
is nearly, what is managed, is nearly a wilderness area, all of 
the incentive for it 75 years ago was for economic development. 
It was a bunch of people in the eastern United States who said 
well, why are all these parks out west? We want one, too. We 
want the tourists. And we want their dollars.
    So, what is the Governor's attitude, and yours, about the 
importance of maintaining the parks and the natural beauty of 
the area as a way of raising family incomes in the upper 
Cumberland part of Tennessee?
    Mr. Sloan. I think both the State, as well as the Federal 
Government, have invested largely in assuring public access and 
public lands on the plateau. I had said earlier that we have 
roughly 600,000 acres on the plateau that are public lands. We 
have over 80 State and Federal parks and natural areas, 
including the Big South Fork Scenic River and Recreational 
Area. And 2 years ago, the Governor acquired conservation 
interests in over 130,000 acres on the plateau, which is the 
largest land acquisition for the State of Tennessee, and for 
the enjoyment of the people of Tennessee, since the Great Smoky 
Mountains.
    So, I think that is a value that is held very highly by 
this administration and by the entire State.
    Senator Alexander. Thank you very much. And you might tell 
the Governor that at the subcommittee meeting that I just went 
to on the Interior Appropriations Committee bill, that the full 
committee approved another $5 million or so for the purchase of 
lands in upper Cumberland regions. So I would want to make sure 
that, at the same time we dealt with legislation like this, Mr. 
Chairman, that it was not inconsistent with that.
    Thank you for allowing me a little extra time for my 
questions.
    Senator Cardin. I appreciate it very much.
    I just want to follow up on the economic issue for one 
moment, because, in all of our States in the Appalachia, the 
tourism dollars seem to be increasing rather dramatically. It 
is a beautiful area. I live close by and I have been up to 
Appalachia many times. It is a growing industry. We have the 
numbers and the numbers seem to be growing. It seems to me that 
some of the environmental risks and public health risks are 
counter to the economic opportunities of this region.
    Secretary Huffman, one thing that I think I noticed in your 
testimony, and I just want to challenge if, for a moment, and 
give you a chance to respond. One of the arguments that have 
been made on the fills is the flattening of the mountaintops, 
particularly as for development. It gives you economic 
development opportunities. And yet the studies that I have seen 
show that there is very little development being done in these 
lands that are basically being left in these conditions. Very 
little has been developed. I think Mrs. Gunnoe has a point 
about how people do not want to live near these areas anyway.
    Do you have any indication about the economic development 
opportunities associated with this? I think I saw that 
somewhere in your testimony, and I just want to give you a 
chance because it seems like just the opposite is true.
    Secretary Huffman. Well, Senator, that is a very good 
question. Historically, we have not been very good at taking 
advantage of the opportunities that the reclaimed mine land 
would offer and present for the local communities in rural West 
Virginia. A couple of changes recently have taken place that is 
changing that whole dynamic.
    First of all is the post-mining land uses that are being 
selected now, and this is a trend that has been going on for 5 
or 6 years, has been to select the forestry reclamation 
approach. Nearly 80 percent, I think it is about 78 percent, 
nearly 80 percent of the post-mining land uses that are chosen 
for all of our surface mining activities in the State are what 
is called the forest or reclamation approach. That consists of 
reestablishing the native hardwood forest. We are basically 
planting trees. And there is a science to that. It is not a 
matter of sticking a seed in the ground.
    So that has been the vast majority of the reclamation 
approaches that have been taking place recently. Just this last 
legislative session, in fact it was last week, Governor Manchin 
signed into law a post-mine land use bill that would bring 
together the local redevelopment authorities and get local buy-
in and force them, or require them, to develop a land use 
master plan for their county as it relates to surface mining 
and ensure that any time there is an opportunity to take 
advantage of a reclamation project on a mine site, that that is 
done in a coordinated fashion.
    Historically, we have not communicated very well. We have 
not done a very good job with that and the Governor recognizes 
that is an issue and we are moving in that direction.
    We are building, if you do not mind me, please stop me if 
you want me to stop----
    Senator Cardin. I want you to give as much West Virginia 
commercial time as you want to take on potential development. 
And I want you to have those reclamation projects and I want to 
make sure our water supply is clean and I want to make sure 
that we deal with the environmental risks here.
    I am going to put into the record a number of studies, to 
be included in the record, and they show, let me just give you 
this number, one shows that there have been over 5,800 valley 
fills in West Virginia and Kentucky over the last 10 years. A 
VA Tech professor estimates that less than 1 percent has been 
reclaimed for economic development. I do not know, again, we 
will look at those specific numbers.
    I only raise this because we hear about the economics. All 
of us, Senator Alexander and I, started off by saying coal is 
an important part of America. In West Virginia and Kentucky, 
there is great potential for economic growth that we think may 
be hampered by mountaintop recoveries. We think that needs to 
be taken into consideration when the economic argument is made.
    We are here to talk about public safety, the water, et 
cetera. But we hear the economic arguments. And, in some 
respects, I think if you use the economic arguments, it is 
another reason to stop mountaintop recoveries, because I think 
you have a much better chance of economic growth without that 
type of activity and the reclamation issues are much more 
complicated when you have taken off the mountaintop.
    I want to ask one more question, to Mrs. Gunnoe, and that 
is that you gave a pretty vivid picture of what you have to 
live with. That picture is certainly very compelling. I want 
you to tell me whether you have experienced a high instance of 
flash floods or uncontrolled issues as a result of the 
mountaintop operations near you. Have you experienced a 
difference as a result of these operations?
    Ms. Gunnoe. I have. A tremendous difference. I have lived 
there, first, I have lived there for 41 years. I am 41 years 
old. I have lived there my entire life. And I have watched many 
rain storms come and go. Since the valley fill, it is almost a 
given. When we get rain, we get flooded.
    There have been times that I have had the water raise with 
no rain at all. So, literally, the coal companies, something 
happened back on the mine site, and the water raised. The sun 
was shining, the rain had nothing to do with it. Yes, I was 
flooded with no rain. It definitely changes the entire aquifer, 
the entire everything.
    The hollow that I live in, literally, you have two 
mountains that come in together, it has changed everything 
simple because the water itself, the increase in the water 
itself, has washed away the bottoms of the mountains. With 
that, it has allowed the mountains to slide in and then wash 
away again. And then behind it all, you have got this huge plug 
known as a valley fill and it has literally devastated every 
bit of our property in Amalfus Hollow.
    And it continues to do it. It is literally washing away the 
land that I live on. I am the only one that lives in this 
hollow. I know every step of it and I have known every step of 
it my entire life and there is nothing, I mean, even the, I 
will tell you, the sun never did come through my bedroom window 
all of my life. Since they took the mountaintop off, the sun 
now comes in my bedroom window. Now there is a change you would 
not think about.
    It dramatically changes everything, especially the water 
flow. The water flow takes on a life of its own, if you will. 
It literally meanders and goes wherever it wants to.
    I would like to point out, too, that you have, with a mine 
site behind me, you have 1,183 acres in one operation and you 
have 746 acres in another operation. That is almost 2,000 acres 
of nothing but rock. That does not absorb water. Water runs off 
of it. And when the water runs off on it, it runs off of it in 
such a way that it tears everything in its sight out. 
Literally, when I was flooded in 2003, the floodwaters included 
live, standing trees.
    Senator Cardin. Well, once again, we thank you for really 
putting a face on this issue.
    Mrs. Gunnoe. I appreciate that.
    Senator Cardin. We hear about the impact, but until you 
know someone who has experienced it first hand, it does not 
have the type of impact that your testimony has had.
    Mrs. Gunnoe. Thank you.
    Senator Cardin. Senator Alexander.
    Senator Alexander. The only other thing I would say is that 
I am glad, Mr. Chairman, that you emphasized the economic part 
of it. I mean, first, I do not think that any of us need to 
make any apology for enjoying the beauty of the natural 
outdoors. Nobody in east Tennessee does. If you walk down the 
street and ask people why they live there, that is what they 
will tell you.
    But also, I could go into the Sevier County Chamber of 
Congress, which is close to Butcher Holler where Dolly Parton 
grew up, and that was a poor county before the Great Smoky 
Mountain National Park. If you go in there now and ask this 
county, which is 80 percent Republican, what their No. 1 
chamber of commerce issue is, it is clean air. Because they 
want to have an environment that people will want to come visit 
and spend their money.
    As I look at the area we are looking at in Tennessee, where 
we have, I mean I know these counties pretty well. It is 
Claiborne County and Campbell County and Anderson and Finchers. 
Those are our big coal producing counties, and those are 
beautiful places. They are beginning to get a lot of the kind 
of economic development around the several State parks in the 
region and particularly the Big South Fork area, which has a 
lot of horse trails that are not allowed in the Smoky Mountain 
parks.
    You have people moving in, spending money, buying houses, 
the property tax levels are going up and, if you tear up the 
mountains and fill up the streams, why, they will go somewhere 
else.
    So, I hope that either the Governor or us sometime, Mr. 
Sloan, the Federal Government, can do a relative study of the 
value of the clean water and natural beauty of the area in 
producing dollars in the pockets of people who need higher 
family incomes. I think we have shown that by properly managing 
it, we can have coal mining and natural beauty in our area. I 
believe we can do that.
    This is very important testimony and all of you have made a 
real contribution to our understanding of this and, as time 
goes on, we will have a chance to consider the legislation 
Senator Cardin has prepared. I am very proud to be a co-sponsor 
with him of that legislation.
    Senator Cardin. Let me join Senator Alexander in thanking 
you all for your testimony today. It furthers the record that 
we have on this issue. I know that Senator Boxer is interested 
in the results of this hearing, and other members of the 
Committee. Without objection, there are other statements from 
other members of the Committee which will also be made a part 
of the record.
    And with that, the Subcommittee will stand adjourned. Thank 
you all very much.
    [The referenced statements were not received at time of 
print.]
    [Whereupon, at 4:58 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows. More 
documents are retained in the Committee's files.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
